   DEPARTMENT OF HOMELAND SECURITY
       Office of Inspector General



           Interagency Agreement with 

      U.S. Department of Housing and Urban 

      Development for the Disaster Housing 

               Assistance Program 





OIG-08-55                        May 2008
                                                                         Office (~f Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528



                                                                        Homeland
                                                                        Security
                                MAY      6 2008


MEMORANDUM FOR:	              R. David Paulison
                              Administrator
                              Federal Emergency Management Agency

FROM:	                        Richard L. Skinner
                              Inspector General

SUBJECT:	                     Interagency Agreement with U.S. Department ofHousing and Urban
                              Development for the Disaster Housing Assistance Program
                              Report Number IOIG-08-55

On July 26,2007, the Department of Homeland Security/Federal Emergency Management Agency
(DHS/FEMA) entered into an interagency agreement (IAA) with the Department of Housing and
Urban Development (HUD) to administer the Disaster Housing Assistance Program (DHAP). The
agreement requires HUD to act as a servicing agent to provide temporary long-term housing rental
assistance and case management to identified individuals and households displaced by hurricanes
Katrina and Rita. FEMA program officials responsible for the DHAP contacted the Office of
Inspector General with concerns relating to the potential for duplication of fees being paid, as well as
administrative fees being paid for services not rendered.

We performed a review of HUD-proposed modifications to the operating requirements for DHAP.
The objective of our review was to determine whether certain elements of the proposed
modifications relating to compensation for program services could result in duplicate or improper
payments. We analyzed the IAA terms and conditions, including program services and funding, and
reviewed the DHAP operating requirements, including specific services to be provided and amounts,
method, and timing for payment. Additionally, we held discussions with program officials at FEMA
and HUD, and reviewed correspondence between the two agencies with respect to the HUD­
proposed modifications.

The DHAP provides temporary housing assistance through March 1,2009, by means of a monthly
rent subsidy to eligible families displaced by Hurricanes Katrina and Rita. The agreement requires
HUD's Public Housing Authorities (PHAs) to perform pre-transitional activities and case
management services. In addition, the IAA indicates that FEMA will provide the PHAs with
monthly fees for administrative services, as well as a one-time placement fee when a family enters
the program. PHAs will calculate the monthly rent subsidies, make monthly rent payments on
behalf of participating families, perform housing inspections, and apply appropriate subsidy
standards for families. See Appendix A for a more detailed description of these fees. Further, HUD
receives administrative fees for salaries and benefits, travel, overtime, communications, equipment
and other services.
HUD initially planned to start the DHAP in November 2007, but subsequently changed the initiation
date to December 2007 since they could not get all families transitioned to DHAP. Consequently,
FEMA, rather than the PHAs, made rent subsidy payments for November. However, PHAs may
have been reimbursed for administrative costs not incurred, specifically the portion of the
administrative service fees related to rent subsidy payments to eligible families during November.
In addition, duplicate fees related to subsidy payments could have been paid in December 2007 and
subsequent months because many of the PHAs were not in a position to make those payments in
December. We were told that the Houston PHA made the rent subsidy payments for those PHAs
that could not make the December payments. Since the Houston PHA will be paid for the
administrative services provided on behalf of those PHAs, service fees should not have been paid to
PHAs that did not provide services in December. We concluded that FEMA paid HUD for
administrative service fees not incurred, and paid some fees twice.

We recommend that Disaster Assistance Directorate officials require HUD's PHAs to:

       Recommendation #1: Provide a cost-estimate for administrative service fees related to the rent
       subsidy payments made by the PHAs,

       Recommendation #2: Reimburse FEMA for the administrative service fees related to the rent
       subsidy payments that were not made by HUD's PHAs in November 2007, and

       Recommendation #3: Reimburse FEMA for the duplicate administrative service fees related to
       the rent subsidy payments that were paid or will be paid to the Houston PHA and the PHAs that
       did not render service in December 2007 and subsequent months.

This review was conduCted under the authority of the Inspector General Act of 1978, as amended,
and according to Quality Standards for Inspections issued by the President's Council on Integrity
and Efficiency.

We request that you provide written comments to this report and the three recommendations within
30 days of the date of this memorandum. Should you have any questions, please call me, or your
staff may contact Matt Jadacki, Deputy Inspector General for Emergency Management Oversight, at
(202) 254-4100.


cc:	      Chief Financial Officer, FEMA
          Assistant Administrator, Disaster Assistance Directorate
          Assistant Administrator, Grants Program Directorate
          Director, GAO/OIG Liaison Office
          FEMA Audit Liaison




                                                    2

Appendix A
Disaster Housing Assistance Program Fees for Public Housing Authorities

  DHAP Administrative         Service PHA to Perform                Example
          Activity
Pre-Transition Activities     $92.00/month times           If 100 families are referred
(9/1/07 - 10/31107, only)     number of families           to the PHA during
                              referred to PHA and          September, the Pre-
                              receiving pre-transitional   Transitional Activities Fee
                              services, times number of    is:
                              months of service before     $18,400 = $92 x 100
                              November 1,2007 (this is     [Families referred] x 2 [max
                              to be paid in lump-sum       # of months in this period]
                              immediately after FEMA
                              signs a grant agreement      If 11 more families referred
                              with the PHA)                to PHA during month of
                                                           October, the PHA would
                                                           receive an additional Pre-
                                                           Transitional Activities Fee
                                                           of:
                                                           $1,012 = $92 x 11
                                                           [additional Families
                                                           referred] x 1 [# of months
                                                           remaining in this period]

Case Management              $92/month to be paid in       November 2007 to February
                             lump-sum after                2008 - number of families
                             November 1, 2007              referred times 4 [number of
                                                           months of service during
                                                           this period]
                                                            - For the 111 families
                                                            noted above, the Case
                                                            Management Fee is:
                                                            - $40,848 = $92 x 111 x 4

                                                           March 2008 to March 2009
                                                           - number of families under
                                                           DHAP lease as reported on
                                                           quarterly basis times 3
                                                           [number of months during
                                                           quarter]
                                                            - If 98 of 111 families
                                                            noted above are reported as
                                                            participating as of February
                                                            2008, quarterly Case
                                                            Management Fee is:
                                                            - $27,048 = $92 x 98 x 3




                                          3

Appendix A
Disaster Housing Assistance Program Fees for Public Housing Authorities

 DHAP Administrative          Service PHA to Perform                Example
         Activity
Administrative Services      15 percent of initial         For the 111 families noted
                             estimated DHAP rent           above, assuming each
                             subsidy payment for 16        family has rent subsidy of
                             months (to be paid in lump- $500, the Administrative
                             sum at time of family         Service Fee is:
                             eligibility determination and $114,969 = 15% x 111 x
                             referral to PHA)              $500 x 13.81011 [program
                                                           months 11/1/07 to 2/28/09,
                                                           adjusted for assumed 2%
                                                           month program attrition]

                                                           If 10 additional families are
                                                           referred during November,
                                                           assuming rent subsidy of
                                                           $500, the Administrative
                                                           Service Fee is:
                                                           $9,608 = 15% x 10 x $500 x
                                                           12.81011 [program months
                                                           12/1/07 to 2/28/09, adjusted
                                                           for assumed 2% month
                                                           program attrition]
One-Time Placement Fee       To be paid when a family is    - $1,000 for each family
                             placed under a Disaster        leased in-place or residing
                             Rent Subsidy Contract         in FEMA-identified unit
                                                           - $1,000 for each family
                                                           successfully placed in
                                                           permanent housing instead
                                                           ofDHAP
                                                           - $1,500 for each family
                                                           placed in PHA-identified
                                                           unit to reflect added
                                                           responsibilities to assist
                                                           family in leasing a unit
                                                           under the program

o





                                          4

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
